Q@QCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214.

E-Mail Address:

contact@cocklelegalbriefs.com

No. 19-168

REMINGTON ARMS CO., LLC, et al.,
Petitioners,
Vv.
DONNA L. SOTO, ADMINISTRATRIX
OF THE ESTATE OF VICTORIA L. SOTO, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
PROFESSORS OF SECOND AMENDMENT LAW, CATO INSTITUTE, FIREARMS POLICY
COALITION, FIREARMS POLICY FOUNDATION, CALIFORNIA GUN RIGHTS
FOUNDATION, MADISON SOCIETY FOUNDATION, AND INDEPENDENCE INSTITUTE IN
SUPPORT OF PETITIONERS in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 6000 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
ae, , Ellie Oude h,
My Commission Expires Nov 24, 2020 "

 

 

Notary Public Affiant 38411
